No. 19-7
IN THE

~upreme Qtourt of tbe fflniteb ~tate9'
SEILA LAW LLC,

Petitioner,

V.

CONSUMER FINANCIAL PROTECTION BUREAU,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I hereby certify that the Brief
Amici Curiae of Twenty-Seven Members of the U.S. House of Representatives in
Support of Petitioner in Seila Law LLC v. Consumer Financial Protection Bureau, No.
19-7, complies with the word limitations, as it contains 6,982 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: December 16, 2019

&vfdl~
Michael A. Carvin

